                                                  NA TIONAL SCIENCE FOUNDATION
                                                   OFFICE OF INSPECTOR GENERAL
                                                     OFFICE OF INVESTIGA TIbNS

                                            CLOSEOUT MEMORANDUM

 Case Number: A09030012                                                                      Page 1 of 1



                 NSF OIG received an allegation that three faculty members l falsified data in their
         respective research. The Complainant2 alleged that Dr. A's3
                                                                   I
                                                                      longitudinal study was indeed not
         longitudinal and included too small of a sampling to be reliable; that "some of the significant
         findings" of Dr. B4 "might have been suppressed;" and that Dr. C5 falsified data related to the
         characteristics of her subjects and the manner in which certain factors were coded.

                 NSF OIG examined each allegation and determined we had no jurisdiction over Dr. A.
         We also determined the allegations concerning Drs. B and C related to scientific methodology
         and data interpretation, rather than reckless, knowing, or intentional falsification of data. We
         therefore found the allegations against Drs. B and C unsubstantiated. Accordingly, this case is
         closed.




         2


         4




NSF OIG Form 2 (11102)
